Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 RETAIL PHARMACIES WITH
      QUESTIONABLE
     PART D BILLING




                    Daniel R. Levinson
                     Inspector General

                       May 2012
                     OEI-02-09-00600
EXECUTIVE SUMMARY: RETAIL PHARMACIES WITH QUESTIONABLE
PART D BILLING
OEI-02-09-00600


WHY WE DID THIS STUDY

Under the Medicare Part D program, the Centers for Medicare & Medicaid Services
(CMS) contracts with private insurance companies, known as sponsors, to provide
prescription drug coverage to beneficiaries who choose to enroll. In the 6 years since
Part D began, the Office of Inspector General (OIG) has issued several reports that found
that Part D had limited safeguards in place.

HOW WE DID THIS STUDY

We based this study on an analysis of prescription drug event records. Sponsors submit
these records to CMS for each prescription dispensed to beneficiaries enrolled in their
plans. Each record contains information about the pharmacy, prescriber, beneficiary, and
drug. We analyzed all of the records for prescriptions billed by retail pharmacies in
2009. We developed eight measures to describe Part D billing and to identify pharmacies
with questionable billing.

WHAT WE FOUND

Retail pharmacies each billed Part D an average of nearly $1 million for prescriptions in
2009. Over 2,600 of these pharmacies had questionable billing. These pharmacies had
extremely high billing for at least one of the eight measures we developed. For example,
many pharmacies billed extremely high dollar amounts or numbers of prescriptions per
beneficiary or per prescriber. This could mean that a pharmacy is billing for drugs that
are not medically necessary or were never provided to the beneficiary. Although some of
this billing may be legitimate, pharmacies that bill for extremely high amounts warrant
further scrutiny. The Miami, Los Angeles, and Detroit areas were the most likely to have
pharmacies with questionable billing.

WHAT WE RECOMMEND

Together, the findings of this report and prior OIG reports call for a strong response to
improve Part D oversight. Therefore, we recommend that CMS: (1) strengthen the
Medicare Drug Integrity Contractor’s monitoring of pharmacies and ability to identify
pharmacies for further review, (2) provide additional guidance to sponsors on monitoring
pharmacy billing, (3) require sponsors to refer potential fraud and abuse incidents that
may warrant further investigation, (4) develop risk scores for pharmacies, (5) further
strengthen its compliance plan audits, and (6) follow up on the pharmacies identified as
having questionable billing. CMS concurred with four of the recommendations and
partially concurred with the other two.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................9
           Retail pharmacies each billed Part D an average of nearly
           $1 million for prescriptions in 2009.................................................9
           Over 2,600 retail pharmacies had questionable billing .................. 11
           The Miami, Los Angeles, and Detroit areas were the most likely
           to have pharmacies with questionable billing ................................15
Conclusion and Recommendations ............................................................19
           Agency Comments and Office of Inspector General Response.....22
Appendixes ................................................................................................23
           A: Most Common Drugs Billed to Medicare Part D by Retail
           Pharmacies, 2009 ...........................................................................23
           B: Most Common Schedule II and III Drugs Billed to
           Medicare Part D by Retail Pharmacies, 2009 ................................24
           C: Number of Pharmacies That Billed Extremely High
           Amounts by Number of Measures, 2009 .......................................26
           D: Percentage of Pharmacies With Questionable Billing in Each
           Area That Exceeded the Threshold, 2009 ......................................27
           E: Agency Comments ...................................................................28
Acknowledgments......................................................................................32
                   OBJECTIVES
                   1. To describe Part D billing by retail pharmacies in 2009.
                   2. To identify retail pharmacies with questionable Part D billing in 2009.


                   BACKGROUND
                   The Medicare Part D program provides an optional prescription drug
                   benefit to Medicare beneficiaries. 1 The Centers for Medicare & Medicaid
                   Services (CMS) contracts with private insurance companies, known as
                   sponsors, to provide drug coverage to beneficiaries who choose to enroll
                   in the program. In 2010, approximately 35 million beneficiaries were
                   enrolled. 2
                   In the 6 years since Part D began, the Office of Inspector General (OIG)
                   and others have raised concerns about Part D billing. In several reports,
                   OIG found that the program has limited safeguards in place and is
                   vulnerable to fraud, waste, and abuse. 3
                   Additionally, recent investigative cases have illustrated a variety of alleged
                   fraud schemes by pharmacies. For example, a pharmacist who owned
                   26 pharmacies was charged with health care fraud and drug diversion.
                   The owner allegedly paid physicians to write prescriptions that were
                   medically unnecessary and to direct patients to fill them at his pharmacies.
                   The pharmacies purportedly billed $37.7 million to Medicare. 4 In another
                   case, the owners of two pharmacies were charged with fraudulently billing
                   Part D for $3 million for drugs that were never purchased by their
                   pharmacies or dispensed to beneficiaries. 5
                   Concerns about program vulnerabilities have been further heightened by
                   the growing prescription drug abuse problem in the Nation. The number

                   1
                     The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                   P.L. 108-173.
                   2
                     The Boards of Trustees, Federal Hospital Insurance and Federal Supplementary Medical
                   Insurance Trust Funds, 2011 Annual Report of the Boards of Trustees of the Federal Hospital
                   Insurance and Federal Supplementary Medicare Insurance Trust Funds, p. 9. Accessed at
                   https://www.cms.gov/ReportsTrustFunds/downloads/tr2011.pdf on June 28, 2011.
                   3
                     Examples include OIG, Medicare Drug Plan Sponsors’ Identification of Potential Fraud and
                   Abuse, OEI-03-07-00380, October 2008; and OIG, Medicare Drug Integrity Contractors’
                   Identification of Potential Part D Fraud and Abuse, OEI-03-08-00420, October 2009.
                   4
                     United States Attorney’s Office, Eastern District of Michigan, Twenty-six Indicted in Drug
                   Distribution Investigation That Led to Uncovering Massive Health Care Fraud,
                   August 2, 2011. Accessed at
                   http://www.justice.gov/usao/mie/news/2011/2011_8_2_bpatel.html on August 4, 2011.
                   5
                     Department of Justice, Two Brooklyn, New York Pharmacists Charged in $3 Million Health
                   Care Fraud Scheme, July 26, 2011. Accessed at http://www.justice.gov/opa/pr/2011/July/11-
                   crm-970.html on November 14, 2011.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                         1
                   of accidental deaths caused by prescription painkillers each year has
                   increased substantially since 2000. 6 In 2007, more people died from
                   overdoses of prescription painkillers, such as oxycodone, than from
                   cocaine and heroin combined. 7
                   Despite these concerns, little information is currently available about
                   Part D billing. There are no data about how pharmacies typically bill
                   Part D, or about questionable billing. Identifying these data is an
                   important first step in detecting potential fraud, waste, and abuse.
                   This study provides a first look at Part D billing by pharmacies
                   nationwide. It is part of the Health Care Fraud Prevention and
                   Enforcement Action Team Initiative (HEAT), which focuses on detecting
                   health care fraud through innovative data analysis and enhanced
                   cooperation between the Department of Justice, OIG, and CMS. 8
                   Medicare Part D
                   Medicare beneficiaries who choose to participate in the Part D program
                   enroll in one of many plans offered by Part D sponsors. The sponsors may
                   contract directly with pharmacies or they may contract with third-party
                   entities, such as pharmacy benefit managers (PBM), which contract with
                   pharmacies on the sponsors’ behalf. 9 Pharmacies include retail,
                   long-term-care, and mail-order; they may be independently owned or part
                   of a chain. Retail pharmacies are the most common type of pharmacy
                   participating in Part D. Currently, almost all retail pharmacies in the
                   Nation participate in Part D. 10
                   Types of Part D Fraud and Abuse
                   CMS has identified a number of potential pharmacy fraud schemes. 11
                   Many of these schemes include inappropriate billing practices, such as
                   billing for nonexistent prescriptions, billing for brand-name drugs when


                   6
                     Centers for Disease Control and Prevention (CDC), Office of the Director, Public Health
                   Grand Rounds, February 17, 2011, p. 10. Accessed at http://www.cdc.gov/about/grand-
                   rounds/archives/2011/pdfs/PHGRRx17Feb2011.pdf on July 12, 2011.
                   7
                     CDC, Unintentional Drug Poisoning in the United States, July 2010. Accessed at
                   http://www.cdc.gov/HomeandRecreationalSafety/pdf/poison-issue-brief.pdf on July 12, 2011.
                   8
                     U.S. Department of Health and Human Services and U.S. Department of Justice, HEAT Task
                   Force Success. Accessed at http://www.stopmedicarefraud.gov/heattaskforce/index.html on
                   January 11, 2011.
                   9
                     PBMs can provide a number of other services to sponsors, including processing prescription
                   drug claims and managing formularies.
                   10
                      OIG, Retail Pharmacy Participation in Medicare Part D Prescription Drug Plans in 2006,
                   OEI-05-06-00320, June 2007.
                   11
                      CMS, Prescription Drug Benefit Manual Chapter 9 – Part D Program to Control Fraud,
                   Waste, and Abuse, April 2006. Accessed at
                   http://www.cms.gov/PrescriptionDrugCovContra/Downloads/PDBManual_Chapter9_FWA.p
                   df on June 28, 2011.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                         2
                   generics were dispensed, and billing for prescriptions that were never
                   picked up. Other schemes include drug diversion and kickbacks. Drug
                   diversion occurs when a pharmacy dispenses a prescription drug for
                   inappropriate or illegal purposes. A kickback occurs when a pharmacy
                   pays a prescriber to write or a beneficiary to fill an unnecessary
                   prescription that is billed to Medicare.
                   These schemes have often involved Schedule II or III controlled
                   substances. Schedule II drugs have a high potential for abuse and may
                   lead to severe psychological or physical dependence if abused. 12 They
                   include drugs such as oxycodone and morphine. Federal law prohibits the
                   refilling of prescriptions for Schedule II drugs. Schedule III drugs also
                   have potential for abuse and include anabolic steroids, codeine with
                   hydrocodone, and barbiturates.
                   Detecting and Deterring Fraud and Abuse
                   CMS relies on sponsors to help safeguard the Part D program from fraud
                   and abuse. CMS requires sponsors to have compliance plans that contain
                   measures to detect, prevent, and correct fraud, waste, and abuse. 13 As part
                   of these plans, CMS expects that sponsors will monitor their contractors
                   and subcontractors, including pharmacies. 14 CMS also recommends that
                   sponsors use data analysis to detect and prevent fraud, waste, and abuse. 15
                   Specifically, sponsors should use data analysis to recognize unusual trends
                   and identify problem areas and to target their audits of contractors and
                   subcontractors, including pharmacies.
                   Additionally, CMS contracts with two Medicare Drug Integrity
                   Contractors (MEDIC) to help identify vulnerabilities in the Part D
                   program. One MEDIC’s responsibilities include, among other things,
                   detecting, preventing, and investigating potential fraud, waste, and abuse,
                   as well as referring potential cases to law enforcement. The other


                   12
                      These are drugs regulated by the Controlled Substances Act, which established five
                   schedules based on the medical use and the potential for abuse. The most restrictive is
                   Schedule I, which includes drugs that have no currently accepted medical use and a high
                   potential for abuse. Schedule V is the least restrictive. See 21 U.S.C. §§ 801-971.
                   13
                      42 CFR § 423.504(b)(4)(vi).
                   14
                      Part D regulations and CMS guidance refer to these contractors and subcontractors as first-
                   tier and downstream entities. See 42 CFR §423.501(k) and CMS, Prescription Drug Benefit
                   Manual Chapter 9 – Part D Program to Control Fraud, Waste, and Abuse § 40, April 2006.
                   Accessed at
                   http://www.cms.gov/PrescriptionDrugCovContra/Downloads/PDBManual_Chapter9_FWA.p
                   df on July 19, 2011.
                   15
                      CMS, Prescription Drug Benefit Manual Chapter 9 – Part D Program to Control Fraud,
                   Waste and Abuse § 50.2.6.2, April 2006. Accessed at
                   http://www.cms.gov/PrescriptionDrugCovContra/Downloads/PDBManual_Chapter9_FWA.p
                   df on July 19, 2011.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                            3
                   MEDIC’s responsibilities include performing special studies and
                   providing technical assistance to CMS.
                   CMS is responsible for overseeing the sponsors and MEDICs. CMS
                   conducts onsite audits of sponsors’ compliance plans to assess the
                   effectiveness of their fraud and abuse programs. CMS evaluates MEDICs’
                   performance annually.
                   Related Work
                   In a 2008 report, OIG found that in the first 6 months of 2007, 24 of the
                   86 sponsors did not identify any potential fraud and abuse incidents. 16 Of
                   the incidents that were reported, inappropriate billing, such as submitting
                   claims for drugs that were not provided, was the most common. OIG
                   recommended that CMS determine why certain sponsors had identified
                   especially high or low volumes of potential fraud and abuse incidents and
                   determine whether sponsors were initiating inquiries and corrective
                   actions, as required. CMS concurred with these two recommendations.
                   In another 2008 report, OIG found that although CMS relied partly on
                   audits to oversee sponsors’ compliance plans, CMS had conducted only
                   one such audit in 2007. 17 OIG recommended that CMS conduct routine
                   audits of sponsors’ compliance plans to verify that they meet all Federal
                   requirements. CMS concurred with this recommendation and stated that it
                   would begin compliance plan audits in 2007 and that sponsors would be
                   accountable for meeting all requirements.
                   In 2009, OIG issued a report that highlighted vulnerabilities in the
                   MEDICs’ ability to identify Part D fraud and abuse. 18 Specifically, the
                   report found that the MEDICs did not typically use proactive data
                   analysis, such as identifying pharmacies that billed the highest Part D
                   amounts, to detect potential fraud and abuse. The report also found that
                   the MEDICs may not be aware of some potential fraud and abuse
                   incidents because sponsors are not required to refer them to the MEDICs.
                   OIG recommended that CMS ensure that the MEDICs have access to
                   accurate and comprehensive data and require sponsors to report all
                   incidents that are referred to law enforcement to MEDICs as well. CMS
                   concurred with these recommendations, but stated that it did not have the
                   regulatory basis to require sponsors to report such incidents.



                   16
                      OIG, Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse,
                   OEI-03-07-00380, October 2008.
                   17
                      OIG, Oversight of Prescription Plan Sponsors’ Compliance Plans, OEI 03-08-00230,
                   October 2008.
                   18
                      OIG, Medicare Drug Integrity Contractors’ Identification of Potential Part D Fraud and
                   Abuse, OEI-03-08-00420, October 2009.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                           4
                   METHODOLOGY
                   This study is based on an analysis of prescription drug event (PDE)
                   records for all Part D drugs billed by retail pharmacies in 2009. We
                   matched these records to data from the National Council of Prescription
                   Drug Programs (NCPDP) and First DataBank to obtain descriptive
                   information about the pharmacies and drugs, respectively.
                   PDE Data
                   We first identified all PDE records with dates of service from January 1 to
                   December 31, 2009, for covered Part D drugs.19 In total, we identified
                   1.07 billion PDE records. Sponsors submit a record, called a PDE, to
                   CMS for each prescription dispensed to beneficiaries enrolled in their
                   plans. Each PDE record contains information about the drug and
                   beneficiary, as well as identification numbers for the pharmacy and
                   prescriber.
                   To determine which PDE records were billed by retail pharmacies, we
                   used the National Provider Identifier (NPI) for each pharmacy and
                   matched the PDE records to the NCPDP database. 20 This database
                   contains descriptive information about each pharmacy, including its
                   address, the type of pharmacy (e.g., retail), and ownership status (e.g.,
                   chain).21 We identified 59,307 retail pharmacies that billed a total of
                   873.3 million PDE records.22 These records represented 82 percent of all
                   PDE records and 90 percent (59,307 of 65,888) of all pharmacies that
                   billed Part D in 2009. Other types of pharmacies billed the remaining
                   196.2 million records. They included long-term-care pharmacies,
                   mail-order pharmacies, and home infusion pharmacies. We excluded these
                   pharmacies from our analysis because they offer different services and,
                   therefore, may have billing patterns that are different from those of retail
                   pharmacies.



                   19
                      We used 2009 data because they were the most current full year of data available when we
                   started the review.
                   20
                      For almost all PDE records, the NPI of the pharmacy was included on the PDE record either
                   by the sponsor or by CMS. We excluded 0.1 percent of the PDE records from our analysis
                   because the NPI was missing, we could not determine whether the pharmacy that submitted
                   the record was a retail pharmacy, or the pharmacy had multiple locations in the NCPDP.
                   21
                      For the purposes of the report, we used the definitions of retail, chain, and independent
                   pharmacies from the NCPDP. Accordingly, retail pharmacies are those in which the
                   pharmacists store, prepare, and dispense prescription drugs for local patient populations.
                   Chain pharmacies are part of a group of four or more pharmacies under common ownership.
                   Independent pharmacies are one to three pharmacies under common ownership. We included
                   franchise pharmacies with independent pharmacies because they are independently owned.
                   22
                      We did not include 272 retail pharmacies that were alternate dispensing sites or
                   Government pharmacies because they do not typically serve the public.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                         5
                   Using the National Drug Code on the PDE record, we matched the
                   873.3 million PDE records to data from First DataBank. First DataBank
                   contains information about each drug, such as the drug name and whether
                   the drug is brand name or generic. 23 It also indicates whether a drug is a
                   controlled substance and, if so, which schedule the drug is on
                   (Schedule II or III). For the purposes of this study, we use the term
                   “prescription” to mean one PDE record.
                   Measures of Pharmacy Billing
                   We calculated the total dollar amount and total number of prescriptions
                   billed to Part D by retail pharmacies in 2009. 24 We also calculated the
                   total number of beneficiaries who received Part D drugs from retail
                   pharmacies in 2009 and the total number of prescribers who ordered these
                   drugs. 25 We then calculated the number of different types of drugs billed
                   by retail pharmacies. For this analysis, we considered a type of drug to
                   include all drugs with the same name, regardless of dosage or strength.
                   Next, we developed eight measures to describe Part D billing and identify
                   pharmacies with questionable billing. We developed these measures based
                   on the results of past OIG analysis and fraud investigations of pharmacies,
                   as well as input from CMS and contractor staff.
                   The eight measures are:
                        (1) average amount billed per beneficiary,
                        (2) average number of prescriptions per beneficiary,
                        (3) average amount billed per prescriber,
                        (4) average number of prescriptions per prescriber,
                        (5) percentage of prescriptions that were for Schedule II drugs,
                        (6) percentage of prescriptions that were for Schedule III drugs,
                        (7) percentage of prescriptions that were for brand-name drugs, and



                   23
                      First DataBank determines whether a drug is brand name or generic based on the drug’s
                   name.
                   24
                      To calculate the total Part D amount billed, we summed three fields on the PDE records that
                   represent the total gross drug costs: ingredient cost, dispensing fee, and sales tax.
                   25
                      To calculate the total number of beneficiaries, we identified the Health Insurance Claim
                   Number (HICN) associated with each PDE record. To calculate the total number of
                   prescribers, we identified the NPI for the prescriber on each PDE record. Because the PDE
                   record can contain different types of identification numbers, such as an NPI or a Drug
                   Enforcement Administration (DEA) number, we used a crosswalk developed by OIG analysts
                   to identify the NPI associated with each prescriber identification number. We were able to
                   identify the NPIs for 97 percent of the PDE records. For the remaining 3 percent, we used the
                   alternative prescriber identification numbers included on the PDE records.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                           6
                        (8) percentage of prescriptions that were refills. 26
                   We calculated these eight measures for each pharmacy. We then analyzed
                   the distribution of all pharmacies for each measure and calculated the
                   national averages for retail pharmacies. 27
                   Identification of Pharmacies With Questionable Billing
                   For each measure discussed above, we set a threshold that indicated a
                   pharmacy had billed an extremely high amount. 28 We used a standard
                   technique for identifying outliers, known as the Tukey method. 29 Using
                   this method, we set the threshold for each measure at the 75th percentile
                   plus three times the interquartile range. 30 Values that exceeded these
                   thresholds are extreme outliers. We considered all pharmacies that
                   exceeded one or more of these thresholds to have questionable billing.
                   Lastly, we determined whether the pharmacies with questionable billing
                   shared certain characteristics. Specifically, we determined the proportion
                   of pharmacies with questionable billing that were independent and the
                   proportion that were part of a chain. We also determined whether the
                   pharmacies with questionable billing were concentrated in certain
                   metropolitan areas. To do this, we identified each pharmacy’s Core Base
                   Statistical Area (CBSA) based on the pharmacy’s address. A CBSA is a
                   region around an urban center that has at least 10,000 people. 31 CBSAs
                   include the entire metropolitan area, not just the urban center. For
                   example, the New York metropolitan area includes counties in New York
                   and New Jersey. We focused our analysis on the 52 CBSAs that had at
                   least 250 pharmacies because we wanted to concentrate on large
                   metropolitan areas. These 52 CBSAs included 47 percent of all retail
                   pharmacies nationwide that billed Part D in 2009. We then determined the


                   26
                      Each PDE record indicates whether the drug is a refill.
                   27
                      The average number of prescriptions per beneficiary represents the average number of
                   prescriptions one pharmacy billed per beneficiary. It does not represent the average number
                   of prescriptions that each beneficiary received because beneficiaries can go to multiple
                   pharmacies.
                   28
                      We focused our analysis of questionable billing on pharmacies that billed for at least
                   100 PDE records and were paid at least $100,000 for Part D drugs in 2009. In total,
                   3,344 retail pharmacies did not meet these criteria. We also identified 163 retail pharmacies
                   that reported providing some specialty pharmacy services. Specialty pharmacies generally
                   dispense high-cost drugs to patients with chronic, complex illnesses. Because we could not
                   determine whether differences in their billing were due to their specialty services, we
                   excluded them from this analysis. A total of 55,963 pharmacies and 870.9 million PDE
                   records were included in this analysis.
                   29
                      See J.W. Tukey, Exploratory Data Analysis. Addison-Wesley, 1977.
                   30
                      The interquartile range is calculated by subtracting the value at the 25th percentile from the
                   value at the 75th percentile.
                   31
                      U.S. Census Bureau, Metropolitan and Micropolitan Statistical Areas. Accessed at
                   http://www.census.gov/population/www/metroareas/aboutmetro.html on March 3, 2011.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                               7
                   proportion of pharmacies in each CBSA that had questionable billing and
                   identified the CBSAs with the highest proportions. For these areas, we
                   also calculated the percentage of pharmacies with questionable billing that
                   billed extremely high numbers or amounts for each measure. We also
                   determined the types of drugs these pharmacies billed most frequently.
                   Limitations
                   We did not independently verify the accuracy of the PDE records or the
                   data from the NCPDP or First DataBank. We based our analysis on the
                   pharmacy type that each pharmacy reported in the NCPDP. As a result,
                   our analysis of questionable billing may contain pharmacies that neglected
                   to report providing specialty services. Providing such services may make
                   a pharmacy more likely to exceed certain billing thresholds.
                   We designed this study to identify pharmacies that warrant further
                   scrutiny. None of the measures we analyzed confirm that a particular
                   pharmacy is engaging in fraudulent or abusive practices. Some
                   pharmacies may be billing extremely high amounts for legitimate reasons.
                   For example, a pharmacy located in a rural area with few physicians may
                   bill for an extremely high average number of prescriptions per prescriber.
                   Alternatively, a pharmacy located next to a pain clinic may bill for an
                   extremely high percentage of Schedule II or III drugs.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                        8
                   FINDINGS
                   Retail pharmacies each billed Part D an average of
                   nearly $1 million for prescriptions in 2009
                   In total, 59,307 retail pharmacies billed Medicare Part D in 2009. These
                   pharmacies billed Part D for a total of 873.3 million prescriptions for
                   24.4 million beneficiaries. 32 Part D paid $56.9 billion for these
                   prescriptions. 33
                   On average, retail pharmacies billed almost $1 million each for Part D
                   prescriptions in 2009. Half of them billed more than $750,000, while
                   10 percent billed more than $1.8 million. In total, retail pharmacies billed
                   for 3,804 different types of drugs; however, some drugs were more
                   common than others. Twenty drugs accounted for one-third of all Part D
                   prescriptions billed. See Appendix A for more information about these
                   drugs.
                   Two-thirds of the retail pharmacies that billed Part D were chain
                   pharmacies, while one-third were independent pharmacies. In all,
                   39,401 chain pharmacies and 19,906 independent pharmacies billed Part D
                   in 2009.
                   Retail pharmacies billed about $1,500 per beneficiary and
                   $1,800 per prescriber, on average
                   As shown in Table 1, retail pharmacies billed an average of $1,576 for
                   each beneficiary they served. On average, they served 648 beneficiaries
                   and billed for 24 prescriptions per beneficiary. Additionally, most
                   (90 percent) pharmacies billed for fewer than 38 prescriptions per
                   beneficiary.
                   Also, as shown in Table 1, retail pharmacies billed an average of
                   $1,818 per prescriber. They had an average of 587 prescribers and billed
                   for an average of 28 prescriptions per prescriber. Additionally, most
                   pharmacies billed for fewer than 54 prescriptions per prescriber.
                   Schedule II and III drugs were a relatively small percentage of
                   the prescriptions billed
                   On average, 2 percent of each pharmacy’s Part D prescriptions were for
                   Schedule II drugs. Schedule II drugs have a high potential for abuse and
                   may lead to severe psychological or physical addiction. The most
                   common Schedule II drugs billed were all painkillers and included

                   32
                     For the purposes of this report, we use the term “prescription” to mean one PDE record.
                   33
                     This includes the amount paid by sponsors, the Government, and by, or on behalf of,
                   beneficiaries.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                           9
                         oxycodone-aceteminophen, oxycodone hydrochloride, morphine sulfate,
                         and fentanyl.
                         On average, 3 percent of each pharmacy’s Part D prescriptions were
                         Schedule III drugs. Schedule III drugs also have potential for abuse. The
                         most common drugs billed were hydrocodone-acetaminophen,
                         acetaminophen-codeine, hydrocodone bitartrate-ibuprofen, and AndroGel.
                         See Appendix B for the most common Schedule II and III drugs billed to
                         Part D.

Table 1: Distribution of Part D Billing by Retail Pharmacies, 2009

                                                                        National Average
                                                                                                       10th             50th           90th
                                                                                for Retail
                                                                                                 Percentile*      Percentile     Percentile
                                                                             Pharmacies

 Average Amount Billed per Beneficiary                                               $1,576             $799          $1,390          $2,333

 Average Number of Prescriptions per Beneficiary                                          24               13              22              38

 Average Amount Billed per Prescriber                                                $1,818             $650          $1,335          $3,232

 Average Number of Prescriptions per Prescriber                                           28               10              21              54

 Percentage of Schedule II Drugs                                                       2.2%             0.3%            1.7%            4.2%

 Percentage of Schedule III Drugs                                                      3.1%             1.0%            2.8%            5.3%

 Percentage of Brand-Name Drugs                                                       30.9%            24.9%           30.0%          37.9%

 Percentage of Refills                                                                55.4%            40.7%           57.9%          66.8%
        th                                                                                 th
 *The 10 percentile indicates that 10 percent of all pharmacies fell below this value. The 50 percentile (also known as the median) indicates
 that half of all pharmacies fell below this value. The 90th percentile indicates that 90 percent of all pharmacies fell below this value.
 Note: For the purposes of this report, we considered a prescription to be one PDE record.
 Source: OIG analysis of Part D data, 2011.




                         Brand-name drugs and refills were common
                         On average, almost one-third of the prescriptions pharmacies billed for
                         were for brand-name drugs. Brand-name drugs are typically more costly
                         than generics. Lipitor, Plavix, Nexium, and Diovan were the most
                         common brand-name drugs in 2009. For most pharmacies, 38 percent or
                         less of their prescriptions was for brand-name drugs. At the same time,
                         refills accounted for 55 percent of the prescriptions billed by retail
                         pharmacies, on average. The remaining were new prescriptions, not
                         refills.




  Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                                                    10
                        Over 2,600 retail pharmacies had questionable billing
                        In total, 2,637 retail pharmacies had questionable Part D billing. Each of
                        these pharmacies exceeded the threshold that indicated extremely high
                        billing for at least one of the eight measures we developed. See Table 2
                        for these thresholds. These pharmacies represented 4 percent of all retail
                        pharmacies nationwide. Together, they billed $5.6 billion to Part D in
                        2009. While some of this billing may be legitimate, all pharmacies that
                        bill for such extremely high amounts warrant further scrutiny.
                        More than one-third of the pharmacies with questionable billing exceeded
                        the thresholds for multiple measures. Specifically, 949 pharmacies did so
                        for 2 or more measures; 54 did so for 4 or more measures. See
                        Appendix C.


Table 2: Number of Pharmacies That Billed Extremely High Amounts by Measure, 2009

                                                                National Average          Threshold for     Number of Pharmacies
                                                                        for Retail           Extremely       That Billed Extremely
                                                                     Pharmacies          High Amounts               High Amounts

Average Amount Billed per Beneficiary                                        $1,576                $4,050                     778

Average Number of Prescriptions per Beneficiary                                   24                  66                      133

Average Amount Billed per Prescriber                                         $1,818                $5,977                     850

Average Number of Prescriptions per Prescriber                                    28                 102                      559

Percentage of Schedule II Drugs                                                2.2%                 8.1%                      871

Percentage of Schedule III Drugs                                               3.1%                10.1%                      276

Percentage of Brand-Name Drugs                                                30.9%                51.5%                      439

Percentage of Refills                                                         55.4%                99.1%                        6

   Total Number of Pharmacies                                                                                               2,637*

*A number of pharmacies exceeded multiple thresholds. As a result, the sum does not equal 2,637.
Note: For the purposes of this report, we considered a prescription to be one PDE record.
Source: OIG analysis of Part D data, 2011.




                        Almost 800 pharmacies billed extremely high dollar amounts
                        per beneficiary; a smaller number billed for an extremely high
                        number of prescriptions per beneficiary
                        Although some of this billing may be legitimate, billing high dollar
                        amounts per beneficiary or for a high number of prescriptions per
                        beneficiary could mean that a pharmacy is billing for drugs that were not
                        medically necessary or were never provided to the beneficiary.
                        As shown in Table 2, 778 pharmacies billed extremely high dollar
                        amounts, each with an average of at least $4,050 per beneficiary. This

 Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                                          11
                   amount was 2½ times the national average of $1,576 per beneficiary. In
                   one case, a pharmacy billed an average of $23,145 for each beneficiary it
                   served.
                   One hundred and thirty-three pharmacies billed for an extremely high
                   number of prescriptions per beneficiary, each with an average of at least
                   66 prescriptions per beneficiary. Again, this number is more than
                   2½ times the national average of 24. More than half of these pharmacies
                   billed for more than 300 prescriptions for at least 1 beneficiary. One of
                   these pharmacies billed for 946 prescriptions for a single beneficiary in
                   1 year.
                   Eight hundred and fifty pharmacies billed extremely high
                   dollar amounts per prescriber, while 559 billed for an
                   extremely high number of prescriptions per prescriber
                   Billing high dollar amounts per prescriber or billing for a high number of
                   prescriptions per prescriber may indicate that a pharmacy has relationships
                   with certain prescribers. Although in some cases they may be legitimate,
                   these relationships are a concern because the pharmacy and prescriber may
                   be working together to bill for drugs that were not medically necessary or
                   were never provided to the beneficiary.
                   The 850 pharmacies that billed extremely high dollar amounts per
                   prescriber each averaged at least $5,977 per prescriber. This amount was
                   about three times the national average of $1,818. Some of these
                   pharmacies billed considerably more per prescriber on average. For
                   example, five of these pharmacies each billed more than $90,000 per
                   prescriber.
                   Additionally, 559 pharmacies billed for an extremely high number of
                   prescriptions per prescriber; each averaged at least 102 prescriptions per
                   prescriber. This number was about 3½ times the national average of
                   28 prescriptions per prescriber.
                   For many of these 559 pharmacies, a large percentage of the prescriptions
                   were ordered by just a few prescribers. At one third of these pharmacies,
                   one or two prescribers ordered more than half of the prescriptions. At
                   1 pharmacy, a single prescriber ordered 46,868 prescriptions. In another
                   case, a single prescriber ordered 85 percent of the 20,186 prescriptions
                   billed by 1 pharmacy during the year.
                   Over 1,000 pharmacies billed for an extremely high percentage
                   of Schedule II or III drugs, which have potential for addiction
                   and abuse
                   Schedule II and III drugs have a high risk for abuse. Although there may
                   be valid reasons why some pharmacies bill for high percentages of

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                            12
                   Schedule II and III drugs, all of these pharmacies warrant further scrutiny.
                   Billing for a high percentage of these drugs may indicate that a pharmacy
                   is billing for medically unnecessary drugs, which may be used
                   inappropriately or diverted and resold for a profit. Misuse of these drugs
                   has serious human and financial costs.
                   A total of 1,067 retail pharmacies billed for Schedule II or III drugs for an
                   extremely high percentage of their prescriptions. Specifically,
                   871 pharmacies billed for a high percentage of Schedule II drugs. At least
                   8 percent of each of these pharmacies’ Part D prescriptions were for
                   Schedule II drugs. This was four times the national average of 2 percent.
                   The most common Schedule II drugs among these 871 pharmacies were
                   oxycodone hydrochloride, OxyContin, morphine sulfate, and Endocet.
                   Several pharmacies billed over half their prescriptions as Schedule II
                   drugs. Notably, about 75 percent of one pharmacy’s prescriptions were
                   billed as Schedule II drugs, and most of these prescriptions were ordered
                   by one physician.
                   In addition, 276 pharmacies billed for Schedule III drugs for a high
                   percentage of their prescriptions. More than 10 percent of each of these
                   pharmacies’ prescriptions were Schedule III drugs. This was more than
                   three times the national average of 3 percent. The most common
                   Schedule III drugs among these pharmacies were hydrocodone-
                   acetaminophen, acetaminophen-codeine, Suboxone, and Lortab. In one
                   case, almost one-third of the pharmacy’s prescriptions were for
                   Schedule III drugs. Eighty pharmacies had an extremely high percentage
                   of prescriptions for both Schedule II and III drugs.
                   Over 400 pharmacies billed for an extremely high percentage
                   of brand-name drugs, while a few pharmacies billed for an
                   extremely high percentage of refills
                   Billing for a high percentage of brand-name drugs may indicate that a
                   pharmacy is billing for brand names but dispensing generics or is billing
                   for prescriptions never dispensed. A high percentage of refills could mean
                   that a pharmacy is automatically billing for refills even when beneficiaries
                   have not requested them or is billing for prescriptions that beneficiaries
                   never picked up.
                   A total of 439 pharmacies billed for brand-name drugs for an extremely
                   high percentage of their prescriptions. More than half of each of these
                   pharmacies’ prescriptions were for brand-name drugs, compared to the
                   national average of 31 percent. The most common brand-name drugs
                   billed by these pharmacies were Lipitor, Plavix, and Nexium. For one
                   pharmacy, 99 percent of its prescriptions were for brand-name drugs.


Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                           13
                   Additionally, six pharmacies billed for an extremely high percentage of
                   refills. More than 99 percent of each of these pharmacies’ prescriptions
                   for Part D drugs were refills, compared to the national average of
                   55 percent. One of these pharmacies billed for 5,297 prescriptions, all of
                   which were refills.


                                        Examples of Questionable Part D Billing
                        •    One suburban pharmacy had particularly concerning billing. It
                             billed more than $8.4 million to Part D in 2009, which is nine times
                             the national average. Also, it billed for an average of
                             116 prescriptions per beneficiary and 132 prescriptions per
                             prescriber. These are both almost five times the national average.
                        •    One midwestern pharmacy billed for over 1,000 prescriptions each
                             for 2 beneficiaries. One physician ordered almost all the
                             prescriptions for one of these beneficiaries.
                        •    A third pharmacy billed an average of $132,845 per prescriber,
                             which is 73 times the national average. Virtually all of these
                             prescriptions were for brand-name drugs.



                   Independent pharmacies were eight times more likely than
                   chains to have questionable billing
                   Independent pharmacies were far more likely than chain pharmacies to
                   have extremely high billing on one of more of the eight measures. As
                   shown in Figure 1, almost 11 percent of independent pharmacies had
                   questionable billing, compared to just over 1 percent of chain pharmacies.
                   Although independent pharmacies made up 34 percent of all retail
                   pharmacies that billed Part D, they accounted for 80 percent of the
                   pharmacies with questionable billing. Of the 2,637 pharmacies with
                   questionable billing, 2,120 were independent.




Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                            14
Figure 1: Percentage of Independent and Chain Pharmacies With Questionable Billing, 2009

   Percenage of Pharmacies     15%
   With Questionable Billing

                                               10.7%
                               10%




                               5%

                                                                                 1.3%

                               0%
                                            Independent                        Chain
                                             (N=19,906)                      (N=39,401)
                                                     Type of Retail Pharmacies


Source: OIG analysis of Part D data, 2011.


                                     The Miami, Los Angeles, and Detroit areas were the
                                     most likely to have pharmacies with questionable
                                     billing
                                     Certain metropolitan areas had a higher percentage of pharmacies with
                                     questionable billing than the Nation, which had 4 percent. The percentage
                                     of pharmacies with extremely high billing on one or more of the eight
                                     measures was four times higher in the Miami area than in the Nation as a
                                     whole. The percentages in the Los Angeles area and the Detroit area were
                                     about 2½ times the national percentage. Percentages in other metropolitan
                                     areas, including New York, Baltimore, and Tampa, were about two times
                                     the national percentage. See Figure 2.
                                     Together, these six metropolitan areas accounted for almost 28 percent of
                                     all pharmacies with questionable billing in 2009. Ninety-three percent of
                                     the pharmacies with questionable billing in these six areas were
                                     independent pharmacies.
                                     Miami. Nineteen percent of Miami area pharmacies had questionable
                                     billing in 2009. This is more than four times the percentage of pharmacies
                                     with questionable billing in the Nation as a whole.
                                     Three-quarters of the pharmacies with questionable billing in the Miami
                                     area billed extremely high amounts per beneficiary. Some of these
                                     pharmacies billed exorbitant amounts. For example, 10 pharmacies billed
                                     an average of $8,000 or more per beneficiary, which is five times the
                                     national average per beneficiary. See Appendix D for more information

 Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                            15
                                            about the pharmacies with extremely high billing in the Miami area and
                                            the other metropolitan areas.
                                            Brand-name drugs made up an extremely high percentage of prescriptions
                                            in 40 percent of the Miami area pharmacies with questionable billing.
                                            These pharmacies also billed for certain brand-name drugs at a much
                                            higher rate than pharmacies nationally. For example, they billed for Sure
                                            Comfort brand insulin needles 50 times more often than pharmacies
                                            nationwide. They also billed for Prevacid, a brand-name drug used to treat
                                            acid reflux, five times more often than pharmacies nationwide.


Figure 2: Percentage of Pharmacies in Each Area With Questionable Billing, 2009

                                      20%            19.4%
    Percentage of Retail Pharmacies
       With Questionable Billing




                                      15%
                                                               12.1%
                                                                         10.5%
                                                                                    9.6%
                                      10%                                                     9.0%
                                                                                                        8.8%



                                      5%    4.4%




                                      0%
                                            Nation   Miami      Los      Detroit Baltimore    New      Tampa
                                                              Angeles                         York

Source: OIG analysis of Part D data, 2011.

                                            Los Angeles. Twelve percent of Los Angeles area pharmacies had
                                            questionable billing in 2009, which is over 2½ times the percentage of
                                            pharmacies with questionable billing in the Nation as a whole.
                                            Most commonly, pharmacies billed for extremely high percentages of
                                            brand-name drugs; over half of the pharmacies with questionable billing in
                                            the Los Angeles area did this. Like pharmacies in the Miami area, these
                                            pharmacies billed for certain brand-name drugs at a much higher rate than
                                            pharmacies in the Nation as a whole. For example, they billed for
                                            Celebrex, a brand-name drug used to treat arthritis, three times more often
                                            than pharmacies nationwide.




  Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                               16
                   In addition, almost half the pharmacies with questionable billing in the
                   Los Angeles area billed for extremely high dollar amounts per prescriber.
                   In fact, three pharmacies billed an average of more than $20,000 per
                   prescriber.
                   Detroit. Almost 11 percent of the pharmacies in the Detroit area had
                   questionable billing in 2009. This is almost 2½ times the percentage of
                   pharmacies with questionable billing in the Nation as a whole.
                   Schedule III drugs were the biggest problem in the Detroit area. Over
                   60 percent of pharmacies with questionable billing billed for an extremely
                   high percentage of Schedule III drugs. Hydocodone acetaminophen, an
                   addictive painkiller, was the most common Schedule III drug billed by
                   these pharmacies.
                   New York. Nine percent of the pharmacies in the New York area had
                   questionable billing in 2009, which is twice the percentage of pharmacies
                   with questionable billing in the Nation as a whole. By far, the two most
                   common problems in the area were billing for high dollar amounts per
                   beneficiary and billing for a high percentage of brand-name drugs.
                   Seventy percent of the pharmacies with questionable billing in the
                   New York area billed for extremely high average dollar amounts per
                   beneficiary. Eight of these each billed an average of at least $10,000 per
                   beneficiary.
                   Sixty-three percent of the area’s pharmacies with questionable billing
                   billed for extremely high percentages of brand-name drugs. In fact, more
                   than one-third of all pharmacies in the Nation that billed for brand-name
                   drugs for an extremely high percentage of their prescriptions were in the
                   New York area. The three most common drugs they billed for were
                   Plavix, Lipitor, and Nexium, which were the drugs most commonly billed
                   for in the Nation as a whole. However, they also billed for an unusually
                   high percentage of the Lidoderm patch, a local anesthetic (numbing
                   medication) used to relieve postshingles pain.
                   Baltimore and Tampa. Like New York, both the Baltimore and Tampa
                   areas had twice the percentage of pharmacies with questionable billing as
                   the Nation as a whole.
                   Baltimore and Tampa both had a problem with Schedule II drugs. Over
                   80 percent of the pharmacies with questionable billing in each area billed
                   for extremely high percentages of Schedule II drugs. For Tampa
                   pharmacies with questionable billing, the most common drug was
                   oxycodone hydrochloride, a narcotic painkiller that is frequently abused




Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                            17
                   for its euphoric effects. 34 It accounted for almost 4 percent of the
                   prescriptions billed by these pharmacies. This is 15 times higher than the
                   percentage billed nationally, which is less than 1 percent. Oxycodone
                   hydrochloride was also among the most common drugs billed by
                   pharmacies in the Baltimore area.




                   34
                      See DEA, Drugs and Chemicals of Concern: Oxycodone, October 2000. Accessed at
                   http://www.deadiversion.usdoj.gov/drugs_concern/oxycodone/summary.htm on
                   October 19, 2011. Oxycodone is often used to alleviate or prevent the onset of opiate
                   withdrawal by street users of heroin and methadone. Products with large amounts of
                   oxycodone are highly attractive to opioid abusers.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                       18
                   CONCLUSION AND RECOMMENDATIONS
                   Thousands of pharmacies nationwide have questionable billing. While
                   some pharmacies may be billing extremely high amounts for legitimate
                   reasons, all warrant further scrutiny. Specifically, we found that many
                   pharmacies billed for extremely high dollar amounts or numbers of
                   prescriptions per beneficiary or per prescriber. Many also billed for
                   extremely high amounts of Schedule II or III controlled substances,
                   brand-name drugs, or refills. In addition, these pharmacies were more
                   likely to be independent and to be in certain metropolitan areas, such as
                   Miami, Los Angeles, and Detroit.
                   Our findings further indicate vulnerabilities in the oversight of the Part D
                   program. Prior OIG reports have also found evidence of these
                   vulnerabilities. For example, a 2009 OIG review revealed that the
                   MEDICs may not be aware of some potential fraud and abuse incidents
                   because sponsors are not required to refer these incidents to the MEDICs.
                   Another report found that more than one-quarter of stand-alone Part D
                   plan sponsors did not identify any potential fraud and abuse in 2007, even
                   though CMS requires sponsors to have programs to detect, correct, and
                   prevent fraud and abuse. A subsequent OIG report found that CMS’s
                   oversight of sponsors’ compliance plans was extremely limited.
                   Together, these findings call for a strong response to improve Part D
                   oversight. OIG is committed to continuing to conduct investigations and
                   audits of pharmacies with questionable billing and to monitor pharmacy
                   billing. CMS must also use all of the tools at its disposal to more
                   effectively identify and fight fraud, waste, and abuse in Part D.
                   Therefore, we recommend that CMS:
                   Strengthen the MEDIC’s Monitoring of Pharmacies and Ability
                   To Identify Pharmacies for Further Review
                   One of the MEDICs is responsible for detecting, preventing, and
                   investigating potential fraud, waste, and abuse. CMS should ensure that
                   this MEDIC does more to systematically monitor pharmacies and to
                   identify those with questionable billing. On an ongoing basis, the MEDIC
                   should monitor pharmacy billing and identify those that need further
                   review. It should use the measures presented in this report, as well as
                   others it deems appropriate. It should also focus on independent
                   pharmacies and those in the metropolitan areas we identified as having
                   high percentages of pharmacies with questionable billing.




Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                           19
                   Provide Additional Guidance to Sponsors on Monitoring
                   Pharmacy Billing
                   Part D sponsors are responsible for monitoring and auditing pharmacies,
                   which are critical steps in fighting fraud, waste, and abuse. CMS should
                   update its Part D manual or issue guidance reminding sponsors of the
                   importance of conducting pharmacy-level data analysis. As part of this
                   effort, CMS should solicit input from sponsors and the MEDIC on other
                   ways to effectively monitor pharmacy billing and include this information
                   in the updated guidance. CMS should also recommend that sponsors
                   routinely generate and review reports on pharmacy billing to identify
                   pharmacies for further review.
                   Require Sponsors To Refer Potential Fraud and Abuse
                   Incidents That May Warrant Further Investigation
                   As we have previously recommended for Medicare Advantage
                   organizations, CMS should require all Part D sponsors to report incidents
                   of potential fraud and abuse that may warrant further investigation to CMS
                   or other appropriate entities. 35 If necessary, CMS should seek statutory
                   authority to implement this change. Current regulations stipulate that
                   Part D sponsors should have procedures to voluntarily report this
                   information. Because sponsors are on the front line of detecting fraud,
                   waste, and abuse in Part D, a significant vulnerability exists when
                   sponsors are not required to report this information.
                   Develop Risk Scores for Pharmacies
                   As it does for other parts of Medicare through its National Fraud
                   Prevention Program, CMS should analyze billing data to detect
                   pharmacies with a high risk for fraud. To do this, CMS should work with
                   the MEDICs and sponsors to develop measures of pharmacy risk and
                   assign each pharmacy a risk level, such as high, moderate, or low. CMS
                   should provide this information to sponsors routinely so that they can use
                   it to target pharmacies for audits and further review.
                   Further Strengthen Its Compliance Plan Audits
                   CMS is responsible for conducting onsite audits of sponsors’ compliance
                   plans to assess the effectiveness of their fraud and abuse programs. CMS
                   has recently improved its audit process. As it continues these efforts,
                   CMS should ensure that its audits include an in-depth review of how
                   sponsors monitor and oversee pharmacies. As part of these audits, CMS
                   should review the extent to which sponsors are effectively using data
                   analysis to detect aberrant billing patterns. CMS should also review what


                   35
                     OIG, Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse
                   (OEI-03-10-00310), February 2012.

Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                      20
                   actions sponsors take when they identify aberrant patterns and potential
                   fraud, waste, and abuse.
                   Follow Up On the Pharmacies Identified as Having
                   Questionable Billing
                   In a separate memorandum, we will refer the pharmacies with
                   questionable billing to CMS for appropriate action.




Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                          21
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE

                   In its comments on the draft report, CMS concurred with four of the
                   recommendations and partially concurred with the other two. CMS
                   concurred with our first recommendation, to strengthen the MEDIC’s
                   monitoring of pharmacies and ability to identify pharmacies for further
                   review. Specifically, CMS stated that it and the MEDIC will continue to
                   refine the MEDIC’s data analysis based on emerging trends and best
                   available data. CMS also concurred with our second recommendation, to
                   provide additional guidance to sponsors on monitoring pharmacy billing,
                   stating that it has already issued guidance and will issue additional
                   guidance in the 2013 Parts C and D Call Letter. In addition, CMS
                   concurred with our fifth recommendation, to further strengthen
                   compliance plan audits. It stated that it will continue to insist that an
                   effective compliance program include the use of data analysis to detect
                   potential fraud, waste, and abuse. Finally, CMS concurred with our sixth
                   recommendation, to follow up on the pharmacies identified as having
                   questionable billing, stating that the MEDIC will review the cases referred
                   by OIG and conduct peer-to-peer comparisons and other analysis.
                   CMS partially concurred with our third recommendation, to require
                   sponsors to refer potential fraud and abuse incidents that may warrant
                   further investigations and stated that it will explore this option. CMS also
                   concurred in part with our fourth recommendation, to develop risk scores
                   for pharmacies. It stated that it will consider developing a risk assessment
                   for pharmacies and sharing this information with sponsors. OIG supports
                   CMS’s efforts to explore requiring sponsors to report potential fraud and
                   to develop pharmacy risk scores.
                   The full text of CMS’s comments is provided in Appendix E. We made
                   minor changes to the report based on technical comments.




Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                          22
APPENDIX A
Most Common Drugs Billed to Medicare Part D by Retail Pharmacies, 2009

                                                                                                               Percentage
                                                                                              Number of
                                                                                                                     of All
 Rank         Drug                                 Common Treatment                        Prescriptions
                                                                                                             Prescriptions
                                                                                                  Billed
                                                                                                                    Billed

 1            Simvastatin                          High cholesterol                           28,099,312               3.2%

 2            Lisinopril                           High blood pressure                        24,642,289               2.8%

 3            Hydrocodone-acetaminophen            Pain                                       23,006,544               2.6%

 4            Amlodipine besylate                  High blood pressure                        19,086,682               2.2%

 5            Levothyroxine sodium                 Hypothyroidism                             19,068,278               2.2%

 6            Furosemide                           Swelling and fluid retention               18,183,668               2.1%

 7            Omeprazole                           Gastroesophageal reflux disease            16,562,103               1.9%

 8            Metoprolol tartrate                  High blood pressure                        14,866,523               1.7%

 9            Metformin HCl                        Type 2 diabetes                            14,331,451               1.6%

 10           Hydrochlorothiazide                  High blood pressure                        14,011,233               1.6%

 11           Lipitor*                             High cholesterol/heart disease             13,849,439               1.6%

 12           Atenolol                             High blood pressure                        13,045,879               1.5%

 13           Plavix*                              Heart disease                              12,767,221               1.5%

 14           Warfarin sodium                      Blood clots                                10,438,471               1.2%

 15           Metoprolol succinate                 High blood pressure                         9,537,572               1.1%

 16           Alendronate sodium                   Osteoporosis                                9,228,818               1.1%

 17           Gabapentin                           Seizures                                    8,839,510               1.0%

 18           Zolpidem tartrate                    Insomnia                                    8,037,495               0.9%

 19           Potassium chloride                   Potassium deficiency                        7,697,500               0.9%

 20           Nexium*                              Gastroesophageal reflux disease             7,259,495               0.8%

      Total                                                                                292,559,483                33.5%

 * Indicates that this is a brand-name drug.
 Note: For more information on the common use for each drug, see National Institutes of Health, National Center for
 Biotechnology Information Pub Med Health, Drugs and Supplements. Accessed at
 http://www.ncbi.nlm.nih.gov/pubmedhealth on July 12, 2011.
 Source: Office of Inspector General analysis of Part D data, 2011.




  Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                                  23
APPENDIX B
Most Common Schedule II Drugs Billed to Medicare Part D by Retail Pharmacies, 2009

                                                                                                            Percentage of
                                                                                               Number of
                                                                                                            All Schedule II
 Rank         Drug                               Common Treatment                           Prescriptions
                                                                                                             Prescriptions
                                                                                                   Billed
                                                                                                                    Billed

 1            Oxycodone-acetaminophen            Pain                                          3,560,637            21.1%

 2            Oxycodone HCl                      Pain                                          2,065,483            12.3%

 3            Morphine sulfate                   Pain                                          2,038,891            12.1%

 4            Fentanyl                           Pain                                          1,756,646            10.4%

 5            OxyContin*                         Pain                                          1,358,823             8.1%

 6            Oxycodone HCl-acetaminophen        Pain                                          1,252,833             7.4%

 7            Endocet*                           Pain                                          1,166,799             6.9%

 8            Methadone HCl                      Pain                                          1,143,404             6.8%

 9            Hydromorphone HCl                  Pain                                            564,687             3.4%

 10           Amphetamine salt combo             Attention deficit hyperactivity disorder        310,460             1.8%

      Total                                                                                   15,218,663            90.4%

 * Indicates that this is a brand-name drug.
 Source: Office of Inspector General analysis of Part D data, 2011.




 Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                                 24
Most Common Schedule III Drugs Billed to Medicare Part D by Retail Pharmacies, 2009

                                                                           Number of      Percentage of All
 Rank         Drug                               Common Treatment       Prescriptions           Schedule III
                                                                               Billed   Prescriptions Billed

 1            Hydrocodone-acetaminophen          Pain                     23,006,544                 86.9%

 2            Acetaminophen-codeine              Pain                      2,215,838                   8.4%

 3            Hydrocodone BIT-ibuprofen          Pain                        220,915                   0.8%

 4            AndroGel*                          Low testosterone            213,796                   0.8%

 5            Suboxone*                          Opioid dependence           198,129                   0.7%

 6            Testosterone cypionate             Low testosterone            114,081                   0.4%

 7            Butalbital compound-codeine        Tension headache             63,229                   0.2%

 8            Butalbital-caff-APAP-codeine       Tension headache             59,242                   0.2%

 9            Testim*                            Low testosterone             58,533                   0.2%

 10           Dronabinol                         Nausea and vomiting          57,003                   0.2%

      Total                                                               15,218,663                 90.4%

 * Indicates that this is a brand-name drug.
 Source: Office of Inspector General analysis of Part D data, 2011.




 Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                  25
APPENDIX C
Number of Pharmacies That Billed Extremely
High Amounts by Number of Measures, 2009

                              Number of Pharmacies That
 Number of Measures               Billed Extremely High
                                              Amounts

 1                                                    1,688

 2                                                        685

 3                                                        210

 4                                                        46

 5                                                         8

     Total                                            2,637

 Source: Office of Inspector General analysis of Part D
 data, 2011.




 Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)   26
 APPENDIX D
 Percentage of Pharmacies With Questionable Billing in Each Area That Exceeded the
 Threshold, 2009



                                                             Los                           New
                                              Miami                       Detroit                    Baltimore         Tampa
 Measures                                                 Angeles                          York
                                            (N=119)                       (N=52)                        (N=51)         (N=56)
                                                          (N=197)                       (N=256)


 Average Amount Billed per
                                               76%             43%          31%            70%            18%              9%
 Beneficiary

 Average Number of Prescriptions
                                               21%             16%            6%             9%             2%             2%
 per Beneficiary

 Average Amount Billed per
                                               20%             48%          19%              8%             8%             9%
 Prescriber

 Average Number of Prescriptions
                                                 7%            22%            4%             2%             4%             7%
 per Prescriber


 Percentage of Schedule II Drugs                 6%             5%            6%             5%           82%             86%


 Percentage of Schedule III Drugs                0%             8%          62%              0%             0%             0%

 Percentage of
                                               40%             53%            6%           63%              0%             2%
 Brand-Name Drugs

 Percentage of Refills                           0%             0%            0%             0%             0%             2%
Note: We considered a pharmacy to have questionable billing if it exceeded the threshold on one or more of the eight
measures. This table shows the percentage of pharmacies with questionable billing that exceeded the threshold for a particular
measure. For example, 76 percent of the pharmacies in Miami that had questionable billing exceeded the threshold for average
amount billed per beneficiary. See Table 2 for the national averages and the thresholds for each measure.
Source: Office of Inspector General analysis of Part D data, 2011.




   Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                                   27
APPENDIX E
Agency Comments




      (:J-            DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Cenl,,", fOt Medicare & Medicaid Sennces


                                                                                             Administrator
                                                                                             Washinglon. DC 20201




               DATE:        MAR 2 12012
              TO: 	          Daniel R. I.e inson
                             Insp'.!Clor General

               FROM: 	       Marllyn Tavarmer /S/
                             Acting Admj~trator

               SUBJECT: 	 Office of Inspector General Draft Report: '"Retail Pharmacies with Questionable
                          Part D Billing" (OEI-02-09-00600)


               The Centers f<)r Medicare & Mcdicaid Services (eMS) appreciates the opportunity to review and
               comment on the Office of Inspector General (OIG) draft report entitled, "Retail Pharmacies with
               Questionable Part D Billing." This study provided a look at Part D billing by pharmacies
               nationwide. It is a part of the Ilealth Care fraud Prevention and Enforcement Action Team
               Initiative. which focuses on detecting health care fraud through thc use of innovative data
               analysis and cnhanced cooperation among the Department of Justice {DOJ}. 010. and eMS.

               The CMS concurs in large part with OIO's recommendations. In fllct. eMS already has in place
               actions thaI address a number ofOIO's recommendations. For example, eMS will continue 10
               monitor pharmacy-related projects conducted by the Medicare drug integrity contractor
               (MEDI C). enhance its relationship with plan sponsors, and provide guidance on the regulatory
               requirements regarding Prescription Drug Plan (PDP) sponsors' and Medicare Advantage (MAl
               organizatioos' obligatinos tn prevent, detect, and correct Parts C and D program noncompliance
               and fraud, waste. and abuse. We believe it is important to note that 010 report identified what
               appeared to be questionable billing based on its own data analysis but did not determine any
               actual fraud committed by the pharmacies.

               -Ibe CMS appreciates OIO's efforts in developing this study and Will consider using select
               aspects ofOI G 's methodology in our own ongoing data analysis. In particular, we will work
               with our MEDIC to assess the underlying reasons for the questionable billing 010 has identified.
               We will assess whether the indicators developed for the study poi nt to actionable items. as well
               as determine if the results might be improVed by the application of certain adjustment factors the
               MEDIC hus applied in previous datil analyses.

               We appreciate OIO's efforts in working with eMS to help identity retail pharmacies with 

               questionable Part 0 billing. Our response to each oflhe OIG recommendations follows. 





 Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                                                                   28
Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)   29
Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)   30
Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)   31
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Jodi Nudelman, Regional
                   Inspector General for Evaluation and Inspections in the New York regional
                   office, and Nancy Harrison and Meridith Seife, Deputy Regional
                   Inspectors General.
                   Miriam Anderson served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the New York regional
                   office who contributed to this report include Jenell Clarke, Jason Kwong,
                   and David Rudich; central office staff who contributed include
                   Eddie Baker Jr., Kevin Farber, Rob Gibbons, and Rita Wurm.




Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600)                       32
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
